Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




  MEDICARE-APPROVED HEART
    TRANSPLANT CENTERS




                    Inspector General

                     February 2004
                    OEI-01-02-00520
               Office of Inspector General

                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the department.

Office of Evaluation and Inspections
The OIG's Office of Evaluation and Inspections (OEI) con ducts short-term management
and program evaluations (called inspections) that focus on issues of concern to the
department, the Congress, and the public. The findings and recommendations contained
in the inspections reports generate rapid, accurate, and up-to-date information on the
efficiency, vulnerability, and effectiveness of departmental programs.

Office of Investigations
The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties. The OI also oversees
state Medicaid fraud control units, which investigate and prosecute fraud and patient
abuse in the Medicaid program.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. The OCIG imposes program exclusions and
civil monetary penalties on health care providers and litigates those actions within the
department. The OCIG also represents OIG in the global settlement of cases arising
under the Civil False Claims Act, develops and monitors corporate integrity agreements,
develops model compliance plans, renders advisory opinions on OIG sanctions to the
health care community, and issues fraud alerts and other industry guidance.
ABSTRACT

  We analyzed data on Medicare-approved heart transplant centers from 1987 through 2000.
  Our report did not evaluate whether heart transplants were performed under unsafe
  conditions. It measures only whether centers continued to meet Medicare’s initial volume
  and/or survival criteria.

  Our analysis of these centers’ performance found that many centers have performed at
  volume and survival rates below the minimum levels required for their initial Medicare
  approval, sometimes for several consecutive years. From 1987 through 2000, 69 of 90
  Medicare-approved heart transplant centers failed, at least once, to meet the initial approval
  criteria for volume and/or survival rate. From 1992 to 2000, 15 percent of Medicare
  beneficiaries who received a heart transplant did so in a Medicare-approved center that fell
  below the initial approval However, the Centers for Medicare & Medicaid Services (CMS)
  rarely receives data from heart transplant centers on their volume and survival rate. The lack
  of data and lack of criteria for ongoing performance limits CMS’s ability to provide effective
  oversight of heart transplant centers.

  We recommend that CMS expedite the development of standards for continuing approved
  centers, as well as guidelines for what leve ls of performance trigger specific responses from
  CMS. We also recommend, in the short term, that CMS improve its oversight of centers by
  entering into an arrangement with the Health Resources and Services Administration for the
  regular exchange of volume and survival rate data.




                                               i
  Medicare-Approved Heart Transplant Centers                                  OEI -01-02-00520
                            EXECUTIVE SUMMARY

OBJECTIVES

  To document whether Medicare-approved heart transplant centers continue to meet the initial
  1-year volume and survival rate criteria required for Medicare approval.

  To assess the Centers for Medicare & Medicaid Services’s (CMS’s) oversight of approved
  centers’ performance on annual volume and survival rate.

BACKGROUND

  In 1987, CMS published a coverage decision that allowed Medicare coverage for heart
  transplants performed in centers that are Medicare approved for heart transplants. By 2002,
  99 heart transplant centers had been approved for Medicare reimbursement. In 1992, 294
  Medicare beneficiaries received a heart transplant; by 2001, this number had increased to
  494.

  The 1987 coverage decision required centers to have performed heart transplants on at least
  12 patients in each of the 2 preceding 12-month periods, and 12 patients prior to that, for a
  minimum total of 36 transplants. It also required centers to have achieved a 73 percent 1-
  year survival rate and a 65 percent 2- year survival rate. In 2000, CMS lowered the volume
  criteria from 36 to 12 transplants.

  The 1987 coverage decision also required approved heart transplant centers to notify CMS
  about changes that would “affect the health and safety of patients...for example...a significant
  decrease in its experience level or survival rates.” The 2000 update to the criteria did not
  change or clarify this requirement.

  CMS has not established ongoing performance standards for Medicare-approved heart
  transplant centers. However, for the purpose of this study, we measured the historical
  performance of approved centers against CMS’s initial approval requirements (12 annual
  procedures with a 73 percent 1-year survival rate). We reviewed volume and survival rate
  data for 90 heart transplant centers approved for Medicare coverage from 1987 through 1999.
  We obtained these data from the Scientific Registry of Transplant Recipients (Scientific
  Registry).

  We reviewed all available files and applications for the 90 centers, including 70 letters that
  centers had sent to CMS in 2000. We mailed a questionnaire to 97 Medicare-approved
  centers and received 65 responses. We analyzed 1992 to 2001 Medicare payment data. We
  conducted six interviews with expert reviewers of applications for Medicare coverage and
  with transplant center representatives.



                                               1
  Medicare-Approved Heart Transplant Centers                                   OEI -01-02-00520
  Our report did not evaluate whether heart transplants were performed under unsafe
  conditions. It measures only whether centers continued to meet Medicare’s initial volume
  and/or survival criteria.


FINDINGS

  From 1987 through 2000, 69 of 90 Medicare -approved heart transplant centers failed,
  at least once, to meet the initial approval criteria for volume and/or survival rate.

      During this time period, 53 Medicare-approved heart transplant centers fell below a 73
      percent 1-year survival rate at least once. Forty- five Medicare-approved heart transplant
      centers fell below an annual volume of 12 transplants at least once. Twenty- four
      Medicare-approved heart transplant centers fell below both initial criteria at least once.

  From 1992 to 2000, 15 percent of Medicare beneficiaries who received a heart
  transplant did so in a Medicare -approved center that fell below the initial approval
  criteria for volume and/or survival rate in the year of their transplant.

      In this 8- year period for which complete data are available, 583 of the 3,847 Medicare
      beneficiaries who received heart transplants received them in centers that did not meet
      CMS’s initial approval criteria in the year of their transplant. Medicare paid $64 million
      for these transplants.

  Over time, an increasing percentage of Medicare -approved heart transplant centers
  performed below the initial volume and/or survival rate criteria.

      The percentage of Medicare-approved heart transplant centers that performed below the
      initial criteria rose from 15 percent in 1987 to 39 percent in 2000. In 1999 and 2000, the
      2 most recent years for which data were available, slightly more than half of all approved
      centers fell below the initial approval criteria for volume and/or survival.

  The lack of data and lack of criteria for ongoing performance limits CMS’s ability to
  provide effective oversight of heart transplant centers.

      CMS rarely receives data from heart transplant centers on their volume and survival rate.
      Nor does CMS regularly obtain such information from the Scientific Registry. Our
      assessment is based on discussions with CMS officials in the central and regional offices,
      our survey of centers, and our review of CMS files. For example, our survey results
      revealed that only 6 of 65 responding centers had notified CMS of any changes in their
      volume or survival rate at some point between 1997 and 2002. Yet, in 2000 alone, one-
      third of these 65 centers fell below the initial criteria for volume and/or survival rate.

      Without volume or survival rate criteria for ongoing performance, CMS has little basis
      for taking enforcement actions. CMS has never withdrawn a center’s Medicare-approval
      status, although 2 centers voluntarily terminated their programs in 2002. In our review of


                                               2

  Medicare-Approved Heart Transplant Centers                                  OEI -01-02-00520
      CMS’s files of approved centers, we found one example of CMS instituting a corrective
      action against a center for falling below the initial Medicare-approval criteria for volume
      and survival rate.

RECOMMENDATIONS

      In its 1987 criteria for Medicare coverage of heart transplants, CMS identified initial
      criteria for volume and survival rate as key elements in ensuring patient quality. By not
      developing volume and survival rate criteria for continuing performance, as it committed
      to do in its 1987 coverage decision, CMS has limited its capacity to ensure that Medicare
      beneficiaries receive heart transplants “under conditions that are safe and effective.”

      CMS has taken some steps toward correcting this situation. It convened a public meeting
      with stakeholders in 1999, established a work group to evaluate the volume and survival
      rate criteria, and has made progress during the course of this inspectio n toward
      developing Conditions of Participation for Medicare-approved transplant centers. CMS
      has indicated that it will publish draft criteria early in 2004.

      We present three recommendations that would enable CMS to improve its oversight of
      the volume and survival rate performance of Medicare-approved heart transplant centers.

  •	 CMS should expedite the development of continuing criteria for volume and survival rate
     performance and for periodic recertification.

  •	 CMS should develop guidelines and procedures for taking action when centers do not
     meet Medicare criteria for volume and survival rate.

  •	 CMS should take immediate steps to improve its ability to maintain accurate and timely
     data on center performance.


COMMENTS ON THE DRAFT REPORT

      CMS and the Health Resources and Services Administration provided comments on our
      draft report. These agencies agreed with our recommendations and described steps that
      they are taking to address them. We would like to address two points that they raise.

      First, they raise concerns about our reliance on Medicare’s volume and non risk-adjusted
      survival criteria as a basis for assessing performance. For this inspection, we focused on
      the Medicare coverage criteria established in 1987—and not yet revised—as measures of
      center performance. Newly approved centers must meet these criteria; it seemed
      reasonable to assess their continued adherence once they are Medicare-approved.

      Second, the agencies indicate that the Department of Health and Human Services
      oversees transplant centers through the Organ Procurement and Transplantation Network
      (OPTN). While the OPTN’s review of center operations and quality provide valuable


                                               3

  Medicare-Approved Heart Transplant Centers                                   OEI -01-02-00520
    information, CMS is the accountable regulatory agency so far as Medicare participation
    is concerned. Nevertheless, we recognize the OPTN’s important oversight role and
    intend to look more closely at it in the future.




                                             4
Medicare-Approved Heart Transplant Centers                               OEI -01-02-00520
                                         TABLE OF CONTENTS
                                                                                                                                   PAGE


ABSTRACT................................................................................................................................... i


EXECUTIVE SUMMARY .........................................................................................................1


INTRODUCTION........................................................................................................................6


FINDINGS


          69 of 90 centers failed to continue meeting initial approval criteria ...............................11


          Centers below criteria provided 15 percent of Medicare heart transplants......................12


          Increasing number of centers fail to meet initial criteria .................................................13 


          Lack of data impedes CMS oversight of centers .............................................................14 



RECOMMENDATIONS

          CMS should develop continuing criteria for center performance....................................16


          CMS should develop guidelines and procedures for taking action..................................17


          CMS should develop an arrangement to receive accurate and timely data .....................17



COMMENTS ON THE DRAFT REPORT.............................................................................18



APPENDICES

          A: Agency Comments ......................................................................................................19


          B: Methodology ..............................................................................................................23


          C: CMS’s 2000 letter to centers .......................................................................................28 


           D: Endnotes......................................................................................................................30


 ACKNOWLEDGMENTS .........................................................................................................31



                                                                      5

     Medicare-Approved Heart Transplant Centers                                                                    OEI -01-02-00520
                                     INTRODUCTION

OBJECTIVES

   To document whether Medicare-approved heart transplant centers continue to meet the initial
   1-year volume and survival rate criteria required for Medicare approval.

   To assess the Centers for Medicare & Medicaid Services’s (CMS’s) oversight of approved
   centers’ performance on annual volume and survival rate.


BACKGROUND

The Importance of Heart Transplants

   Heart transplants have extended and improved the lives of thousands of people. Demand,
   however, continues to outpace the supply of available organs. From 1995 to 2001, over
   26,000 people registered to be placed on a list of patients waiting for a heart transplant. 1 Of
   those on the list, 39 percent did not receive the needed heart transplant. The Secretary of
   Health and Human Services has launched several initiatives to increase awareness of the
   need for organ donation and thereby increase the number of transplant recipients. 2

Medicare Coverage of Heart Transplants

   CMS covers heart transplants for beneficiaries if the procedures are medically necessary and
   performed in centers that Medicare has approved for that purpose. Medicare began coverage
   for heart transplants in approved centers in 1987. 3 By 2002, 99 of 139 heart transplant
   centers in the United States had been approved for Medicare reimbursement. From 1992 to
   2001, the annual number of Medicare bene ficiaries who received heart transplants increased
   by 68 percent, from 294 to 494. During the same period, annual Medicare Part A heart
   transplant payments almost tripled, from $25 million in 1992 to $74 million in 2001.

   From 1992 to 2002, the number of Medicare-approved heart transplant centers grew from 62
   to 99. From 1992 to 2001, the total number of heart transplants performed in the United
   States remained relatively flat, rising from 2,170 to 2,202.

Volume and Survival Rate Criteria for Medicare Coverage

   When it began covering heart transplants in 1987, CMS published a coverage decision
   describing criteria that transplant centers must meet to be eligible for Medicare payment,
   including criteria for volume and survival rate. CMS based these criteria on research that
   demonstrated that volume and survival rate were key indicators of a successful
   transplantation program. The decision announcing Medicare coverage of heart transplants
   stated that the survival rate criteria “are necessary to provide an adequately reliable measure

                                                 6
   Medicare-Approved Heart Transplant Centers                                    OEI -01-02-00520
    of the success of an applicant facility.”4 Later research supported the use of volume criteria
    to ensure better outcomes, finding that “the risk of mortality...is substantially higher in low-
    volume cardiac transplant centers.”5 The volume and survival rate criteria established for
    heart transplants preceded and influenced the criteria later developed for Medicare coverage
    of liver, lung, and intestinal transplants.

                                                        Table 1
                  Changes in Initial Volume and Survival Rate Criteria for Approval
 Criteria                   April 1987- October 2000                      After October 2000
              Heart transplant centers applying for Medicare coverage must perform a
              minimum total of 36 transplants before a date the centers choose,
              referred to in the coverage decision and hereafter as the fiducial date:
                                                                                         •   At least 12 transplants
              •     At least 24 transplants performed in the 24 months prior to              performed within the 12
                    the fiducial date. There must be at least 12 transplants in              months prior to the fiducial
1. Volume           each of the two 12 months in this 2-year period.                         date.
                                               -and­
                                                                                         •   Eliminated all other volume
              •     At least 12 transplants performed m ore than 24 months prior             requirements.
                    to the fiducial date. These 12 can be done at any prior time,
                    with no yearly minimum.
              •     At least 73 percent 1-year survival rate. The cohort of              •   Unchanged survival rate and
                    patients includes all transplants at the center, back to 1982.           cohort. However, the volume
                    The volume criteria result in a minimum of 24 transplants                criteria do not result in any
                    with 1 full year of survival experience.                                 minimum number of
                                                                                             transplants with 1 full year of
                                               -and­
2. Survival                                                                                  survival experience.
              •     At least 65 percent 2-year survival rate. Calculated for all
   Rate
                    transplants, back to 1982. The volume criteria result in a           •   Unchanged survival rate and
                    minimum of 12 transplants with 2 full years of survival                  cohort. However, the volume
                    experience.                                                              criteria do not result in any
                                                                                             minimum number of
                                                                                             transplants with 2 full years of
                                                                                             survival experience.
    Source: OIG analysis of 1987 coverage decision and 2000 decision memorandum.


    Among other criteria, Medicare approval requires centers to meet certain volume and
    survival rate criteria as of a date that centers choose, referred to in the coverage decision as
    the fiducial date. The fiducial date must be within 90 days of the date that a center submits
    its application and is the point from which all volume and survival rate data are calculated
    (see Table 1). The 1987 criteria did not include an ongoing performance standard.

    In 2000, CMS published a memorandum that lowered the volume criteria for approval. 6
    CMS “reasoned that volume could possibly serve as a proxy for the 2-year minimum
    experience requirement in addressing the issue of whether a new transplant center staffed
    with an experience[d] team might be expected to produce satisfactory outcomes.” The 2000
    criteria did not include an ongoing performance standard.

    CMS has taken several steps to develop and institute performance indicators, such as volume
    and survival rate, for measuring the quality of the health care that Medicare beneficiaries
    receive in a variety of settings. For example, in January 2003, CMS published a final rule
    that established the Quality Assessment and Performance Improvement (QAPI) Program,
    which requires hospitals to keep data on performance indicators for improving health

                                                              7

    Medicare-Approved Heart Transplant Centers                                                       OEI -01-02-00520
   outcomes and reducing medical errors. In 2002, CMS launched the National Nursing Home
   Quality Initiative, which uses performance indicators to highlight quality of care in nursing
   homes. The agency began reporting similar information for home health agencies in 2003.

Reporting Criteria for Volume and Survival Rate

   In addition to establishing volume and survival rate criteria, the 1987 coverage decision
   required approved heart transplant centers to maintain data and submit information to notify
   CMS about changes to the transplant program that would “affect the health and safety of
   patients...for example...a significant decrease in its experience level or sur vival rates.” The
   2000 update to the criteria did not change or clarify this requirement. Because volume and
   survival rate are important indicators of quality, notifications of changes in these measures
   can serve as a vital oversight tool.

   All heart transplant centers, regardless of their Medicare-approval status, must report volume,
   survival, and other transplant-related data to a Health Resources and Services Administration
   (HRSA) contractor, the Organ Procurement and Transplantation Network. Anothe r HRSA
   contractor, the Scientific Registry of Transplant Recipients, analyzes and releases these data.

Initiatives to Evaluate Heart Transplant Centers After Approval

   Although CMS has not developed procedures for a reapproval process or criteria for
   continuing performance, as it stated it would in the 1987 coverage decision, it has taken some
   steps to reassess the volume and survival rate criteria. CMS is in the process of developing
   Conditions of Participation for Medicare-approved transplant centers, including those
   performing heart transplants. CMS estimates it will publish the draft criteria early in 2004.
   As a part of this effort, CMS has a workgroup in place to evaluate the initial criteria for
   Medicare coverage and to determine criteria for ongoing approval. 7 In 1999, CMS convened
   a town hall meeting at which stakeholders offered their views on appropriate criteria for
   maintaining approval status, including criteria for volume and survival rate. 8


SCOPE AND METHODOLOGY

   Our study focuses on heart transplant centers approved for participation in Medicare from
   1987 to 2000. We assess the performance of these centers against 2 of the criteria that
   Medicare adopted in 1987. We recognized that heart transplantation is a dynamic field and
   that measures of quality also are evolving. Because there are no continuing performance
   standards for centers, we considered Medicare’s 1987 initial criteria to be a reasonable
   benchmark against which to measure continuing performance.

   Our report did not evaluate whether heart transplants were performed under unsafe
   conditions. It measures only whether centers continued to meet Medicare’s initial volume
   and/or survival criteria.

   For this report we reviewed several sources of data related to the volume and survival rate
   criteria and the reporting requirement. Not every source contains data for each of the 99

                                                 8

   Medicare-Approved Heart Transplant Centers                                    OEI -01-02-00520
heart transplant centers that CMS approved for Medicare, or for the entire period between
1987 and 2002. For example, data limitations prevented an analysis of how often centers met
the 2-year volume and survival rate requirements. We note the time periods and number of
approved centers for each of the data sources as they are referenced in the text.

Below, we summarize our data sources. Appendix B provides a more detailed methodology.

    •	 Center-specific performance data. To determine the extent to which centers met or
       did not meet the initial Medicare coverage criteria for volume and survival rate
       performance, we analyzed annual 1-year volume and survival rate data for the 90
       heart transplant centers approved for Medicare coverage between 1987 and 1999. For
       that time period, we compared each center’s annual volume and survival rate with the
       initial criteria for Medicare coverage and calculated how many times each center fell
       below or met the criteria. Our analysis is similar to the criteria detailed in the 2000
       coverage update, but calculates 1-year survival rates with a full year of follow up.
    •	 Review of files and applications of Medicare -approved centers. To document the
       number of voluntary notifications centers sent to CMS and any communications CMS
       made to centers about performance and reporting expectations, we reviewed 91 files
       and 22 applications of approved centers that CMS has maintained. We also reviewed
       the 70 letters that centers sent to CMS in response to its 2000 letter reminding centers
       to report changes in their transplant programs.
    •	 Phone interviews and on-site visit with CMS central office. To document the
       approval process, CMS’s ongoing oversight, and communications between CMS
       central office and approved centers, we conducted six phone interviews and one on-
       site interview with CMS central office staff responsible for keeping track of and
       writing policy for heart transplant centers.
    •	 Phone survey of CMS regional offices. To determine the role of CMS regional
       offices in the oversight of heart transplant centers and the extent to which regional
       offices communicate with centers and with CMS central office, we surveyed each of
       the 10 CMS regional offices responsible for overseeing Medicare-certified hospitals
       and for informing beneficiaries about insurance.
    •	 Survey of Medicare -approved heart transplant centers. To validate and
       supplement information we gathered from CMS files and staff interviews, we mailed
       a written questionnaire to 97 Medicare-approved centers and received 65 responses.
    •	 Medicare claims data. To calculate how many Medicare beneficiaries received a
       heart transplant and how much those transplants cost, we analyzed Medicare payment
       data. These data cover Medicare Part A payments for diagnostic-related group
       (DRG) 103 (heart transplants) from 1992 to 2000, a period for which we also
       received volume and survival rate data from the Scientific Registry.
    •	 Interviews with expert reviewers and transplant center representatives. To
       document perspectives on Medicare coverage of heart transplants and issues that
       physicians and centers face in addressing volume and survival rate, we conducted six
       interviews with expert reviewers of applications for Medicare coverage and with
       heart transplant center representatives.




                                             9

Medicare-Approved Heart Transplant Centers                                  OEI -01-02-00520
    •	 Literature review. To further understand Medicare coverage of heart transplant
       centers and the volume and survival rate criteria, we reviewed relevant literature,
       including laws, regulations, policies, and guidelines, as well as journal articles.

We conducted this inspection in accordance with the Quality Standards for Inspections
issued by the President’s Council on Integrity and Efficiency.




                                             10

Medicare-Approved Heart Transplant Centers                                  OEI -01-02-00520
                                                         FINDINGS

From 1987 through 2000, 69 of 90 Medicare-approved heart transplant centers
failed, at least once, to meet the initial approval criteria for volume and/or
survival rate.

 The 1987 coverage decision for heart transplants stated that center “approval will be for a
 three year period and extensions of approval will require submission of a continuation
 application and will not be automatic.”9 CMS, however, never specified how centers were to
 submit continuation applications and never developed continuing performance standards for
 approved centers.

 In the 1987 coverage decision, CMS justified its volume and survival rate criteria, explaining
 that “transplantation under such circumstances, and only under such circumstances is safe,
 effective, and widely accepted; that is, reasonable and necessary.”10 Through the year 2000,
 45 of the 90 approved centers fell below the initial approval criteria for volume in at least 1
 year after their approval, and 53 of the centers fell below the initial approval criteria for
 survival rate in at least 1 year after their approval (see Table 2).

 Many Medicare-approved heart transplant centers fell below 12 procedures annually not just
 once, but in multiple years. For example, one center performed fewer than 12 procedures
 annually for 8 consecutive years, including 2 consecutive years in which it performed only 1
 transplant. From 1987 through 2000, 17 centers performed 6 or fewer transplants in a single
 year, yet retained their Medicare approval status.

                                                           Table 2

                     Medicare-Approved Heart Transplant Centers 

          Performing Below the Volume and/or Survival Rate Criteria, 1987-2000

                                     Number of Centers Below Criteria
                                         Below Volume                         Below Survival Rate                 Below Both in
                                    (fewer than 12 procedures)                (less than 73 percent)              the Same Year
   At Least 1 Year Below                        45 (50%)                               53 (59%)                        24 (27%)
   Criteria
   3 or More Years                              27 (30%)                               13 (14%)                         2 (2%)
   Below Criteria
   3 or More Consecutive                        17 (19%)                                 7 (8%)                         2 (2%)
   Years Below Criteria
   N=90. Source: OIG analysis of Scientific Registry of Transplant Recipients database as of 8/2/2002, containing volume and survival
   rate data from 1987-2000. These categories are not mutually exclusive: each cell is an independent summary of all applicable centers.


 Additionally, many Medicare-approved heart transplant centers fell below a 73 percent 1-
 year survival rate multiple times (see Table 2). For example, 2 centers fell below the survival
 rate criteria for 4 consecutive years. Some centers had 1- year survival rates far below 73
 percent: 6 centers had a 1-year survival rate of 50 percent or less. One center had a 1- year
 survival rate of 25 percent for a year in which 8 patients were transplanted. Another center


                                                                11

 Medicare-Approved Heart Transplant Centers                                                                    OEI -01-02-00520
   had a 1- year survival rate of 0 percent for a year in which the single patient transplanted died
   within the year.

   Twenty- four centers fell below both volume and survival rate criteria in a single year. One
   center fell below both initial approval criteria in 4 consecutive years, but continued to be
   approved by Medicare.

   This variance in transplant center performance has implications for beneficiaries. One effect
   is that many Medicare beneficiaries received transplants in low-performing centers that are
   located near approved centers that did meet Medicare’s initial volume and survival rate
   criteria for approval. In the year 2000 alone, 35 Medicare-approved heart transplant centers
   fell below the initial approval criteria for volume and/or survival rate. Twelve of these
   centers, 34 percent, were located within 10 miles of a center that performed above both the
   initial volume and survival rate criteria in 2000.

   From 1987 through 2002, 2 of the 99 approved centers voluntarily terminated their status by
   submitting a letter to CMS, requesting a change in their approval status to “voluntarily
   terminated.” Some centers that retain their approval status, however, have performed at
   volume and survival rate levels below those of the two voluntarily terminated centers.


From 1992 to 2000, 15 percent of Medicare beneficiaries who received a heart
transplant did so in a Medicare-approved center that fell below the initial approval
criteria for volume and/or survival rate in the year of their transplant.

   During the 8 years for which complete Medicare payment data were available, 583 of the
   3,847 Medicare beneficiaries who received heart transplants received them in centers that did
   not continue to meet CMS’s own research-based initial criteria for quality. These 583
   beneficiaries’ transplants accounted for $64 million in Medicare payments. 11 Medicare paid
   $25 million for 232 beneficiaries’ transplants at centers that, after receiving Medicare
   approval, fell below the initial Medicare-approval criteria for volume; $32 million for 294
   beneficiaries’ heart transplants performed at centers that fell below the initial criteria for
   survival rate; and $7 million for 57 beneficiaries’ heart transplants performed at centers that
   fell below both initial criteria.

   The amount of Medicare payments going to centers that did not continue to meet the initial
   certification criteria increased fo urfold, from $3 million in 1992 to $13 million in 2000. The
   number of Medicare beneficiaries receiving transplants at those centers similarly increased; it
   nearly tripled from 34 in 1992 to 98 in 2000.




                                                12

   Medicare-Approved Heart Transplant Centers                                    OEI -01-02-00520
Over time, an increasing percentage of Medicare-approved heart transplant
centers performed below the initial volume and/or survival rate criteria.

     The percentage of Medicare-approved heart transplant centers that performed below the
     initial Medicare-approval criteria for volume and/or survival rate rose from 15 percent (2 of
     13) in 1987 to 39 percent (35 of 90) in 2000 (see Figure 1).

                                                                                  Figure 1

                             Medicare-Approved Centers that Met or Did not Meet the Initial
                             1-year Medicare Criteria for Volume or Survival Rate, 1987-2000

                        70                                                                                    64
                                                                                                                              60
                        60                                                                            55               55            54    55
     Approved Centers




                                                                                     50       52
                        50
                                                                      37    37                                                     36     35
                        40
                                                            30                                                      29
                        30                                                                                                  27
                                                   22
                                                                                                    17      15
                        20                14                               13     12       14
                                 11
                                                                  8
                        10   2        3        2        4
                        0
                             1987     1988     1989     1990     1991      1992   1993     1994    1995     1996    1997    1998   1999   2000
                                                                                       Year
                                                                 Centers that did not meet the initial approval criteria
                                                                 Centers that met the initial approval criteria
Source: OIG analysis of HRSA/Scientific Registry database as of 8/2/2002.


     Of the 90 centers approved through 1998, 48 fell below the initial approval criteria for
     volume and/or survival rate in 1999 or 2000. In other words, in the 2 most recent years for
     which data were available, more than half of all approved centers fell below the initial
     approval criteria for volume and/or survival rate.

     Due to the lack of growth in the number of organ donations, the total number of heart
     transplants performed in the United States during the 1990s stayed relatively flat. Even
     though the number of Medicare-approved heart transplant centers doubled in the 1990s (from
     45 to 90), the total number of transplants performed in these centers grew by only 51 percent.
     Eighteen of the 65 centers responding to our survey, and 3 of the 6 expert reviewers and
     transplant center representatives we interviewed, told us that the stagnant donation rate has
     reduced the average number of transplants performed annually at Medicare-approved centers.




                                                                                     13

     Medicare-Approved Heart Transplant Centers                                                                                  OEI -01-02-00520
The lack of data and lack of criteria for ongoing performance limits CMS’s ability
to provide effective oversight of heart transplant centers.

   The 1987 coverage decision requires Medicare-approved heart transplant centers to report to
   CMS when they experience “any events or changes which would affect [their] approved
   status…specifically…any significant decreases” in volume and/or survival rates. But CMS
   has not defined what level of decreases in volume and/or survival rate should trigger centers
   to report.

   CMS rarely receives data from heart transplant centers on their volume or survival
   rate. Although the 1987 coverage decision requires approved centers to maintain and
   routinely submit data to CMS, this has not happened. The revised performance criteria
   issued in 2000 reiterated this requirement. In both the 1987 and 2000 coverage decisions,
   however, CMS did not specify what type of information centers should maintain or the
   format in which to submit it. In 1987, CMS stated that it would issue such instructions, but it
   has not done so.

   CMS lacks a system to monitor centers’ ongoing performance concerning volume or survival
   rates. We base this assessment on discussions with CMS officials in its central office and
   each of its 10 regional offices, as well as data gathered from our survey of Medicare-
   approved centers and through a review of relevant CMS files.

   In our survey of 97 approved centers, we asked if they had notified CMS of any change in
   their volume or survival rate in the last 5 years. Of the 65 centers that responded, only 6
   indicated that they had notified CMS of changes in their volume or survival rate at some
   point between 1997 and 2002. Yet, in 2000 alone, one-third of these 65 centers fell below
   the initial criteria for either volume and/or survival rate.

   In our file review, we examined the files that were available in CMS’s central office for 91
   approved centers. In those files, we found no documentation of centers submitting volume or
   survival rate information, except for the centers’ response to a specific request CMS made in
   2000. In that year, for the first time in the 15 years of Medicare coverage, CMS mailed a
   letter to centers reminding them to report performance data. This letter triggered a one-time
   spike in reporting, which accounts for the majority of data on volume and survival rate that
   CMS has received from centers. Both before and after this spike in reporting, centers have
   reported little information to CMS concerning volume or survival rate.

   CMS does not regularly obtain information from the Scientific Registry. As we noted in
   the background to this report, another source of data on center performance is available to
   CMS: The Scientific Registry of Transplant Recipients. The Scientific Registry is
   maintained under contract with the Health Resources and Services Administration. All heart
   transplant centers, regardless of their Medicare-approval status, report volume, survival, and
   other transplant-related data to the Organ Procurement and Transplantation Network on an



                                                14

   Medicare-Approved Heart Transplant Centers                                  OEI -01-02-00520
annual basis. Since 2000, these data have been made publicly available on the Scientific
Registry website (http://ustransplant.org).

CMS does not have a system in place to receive these data directly from the Scientific
Registry. CMS does not have an arrangement with the Health Resources and Services
Administration for the regular receipt of these data. We found no indication that CMS
routinely accesses the data on the Scientific Registry’s website regarding heart transplant
center performance.

Without volume or survival rate criteria for continuing performance of approved
centers, CMS has little basis for taking enforcement action against approved centers
that fall below the initial Medicare -approval criteria for volume and/or survival rate.
The 1987 heart transplant coverage decision states “changes in the terms of approval may
lead to prospective withdrawal of approval for Medicare coverage.” CMS, though, has not
determined what type and level of changes in volume and survival rate would lead it to
withdraw Medicare approval. CMS also has not outlined steps it would take to address a
low-performing center before withdrawing approval.

In its 2000 letter reminding centers to report program changes, CMS stated that centers must
report when they fall below the initial criteria under penalty of withdrawal from the Medicare
program (see Appendix C). However, CMS officials have since expressed a lack of certainty
regarding CMS’s authority to take such action, except in egregious cases, since clear
guidelines for performance have not been developed. According to CMS officials and our
review of all CMS files on heart transplant centers, CMS has never withdrawn a center’s
Medicare-approval status (although, as noted before, two centers voluntarily terminated their
programs).

In our review of the files of 90 heart transplant centers that CMS possesses, we found 1
example of CMS taking action against a center for falling below the initial Medicare-
approval criteria for volume and survival rate. In this case, CMS conducted an on-site
review and instituted a corrective action plan in response to a nationa l newspaper article that
raised concerns about the center’s survival rate. CMS had approved this center for Medicare
less than 3 months before the article was published.

CMS has taken no actions to address approved centers that reported falling below the initial
approval criteria. When CMS sent centers a letter in 2000 reminding them to report program
changes, 70 out of the 91 centers that were approved at that time responded. However, CMS
conducted no follow up on these responses or on the 21 centers that failed to respond to its
letter.




                                             15

Medicare-Approved Heart Transplant Centers                                   OEI -01-02-00520
                               RECOMMENDATIONS

   Over the past 15 years, Medicare has covered heart transplants in many centers that, after
   approval, performed at levels below the initial approval criteria for volume and/or survival
   rate. In a recent period for which data are available—1992 to 2000—15 percent of the
   Medicare beneficiaries who received transplants received them in such centers. This is a
   significant concern given that CMS, in its 1987 criteria for Medicare coverage of heart
   transplants, identified the initial criteria for volume and survival rate as key elements in
   ensuring quality. In that statement of criteria, CMS noted the following:

       We believe that the most appropriate means of assuring that Medicare beneficiaries
       receive heart transplants under conditions that are safe and effective is to provide
       coverage only at those facilities with demonstrated experience and success. 12

   Our report did not evaluate whether heart transplants were performed under unsafe
   conditions. It measures only whether centers continued to meet Medicare’s initial volume
   and/or survival criteria. However, by not developing volume and survival rate criteria for
   continuing performance, as it committed to do in its 1987 coverage decision, CMS has
   limited its capacity to ensure that Medicare beneficiaries receive heart transplants “under
   conditions that are safe and effective.”13

   CMS has taken some steps toward correcting this situation. It convened a public meeting
   with stakeholders in 1999, established a work group to evaluate the volume and survival rate
   criteria, and has made progress during the course of this inspection toward developing
   Conditions of Participation for Medicare-approved transplant centers. In its response to our
   draft report, CMS indicated that it will publish these draft criteria early in 2004. The
   development of the Conditions of Participation offers the opportunity for CMS to strengthen
   its ability to oversee the performance of Medicare-approved heart transplant centers.

   We present three recommendations that would enable CMS to improve its oversight of the
   volume and survival rate performance of Medicare-approved heart transplant centers.


CMS should expedite the development of continuing criteria for volume and
survival rate performance and for periodic recertification.

   CMS stated its intention to do so in the 1987 coverage decision, in the 1999 town hall
   meeting, and in the 2000 memorandum that lowered the approval criteria. The updated
   criteria could specify the volume and survival rate that centers must meet to be eligible for
   Medicare approval, as well as the specific requirements and time periods that the
   recertification process involves. Upon determining the appropriate levels of performance and
   the procedures for maintaining continuing approval, CMS should clearly communicate them
   to all approved heart transplant centers.


                                                16
   Medicare-Approved Heart Transplant Centers                                  OEI -01-02-00520
CMS should develop guidelines and procedures for taking action when centers
do not meet Medicare criteria for volume and survival rate.

   Once CMS establishes clear criteria for performance, it could determine the performance
   threshold and corresponding steps necessary to take action if centers fail to meet the criteria.
   For example, it could define the extent to which centers can fall below the performance
   criteria without triggering CMS action. It also could develop guidelines that define when
   poor performance constitutes immediate jeopardy to patients, triggering review of the
   center’s Medicare approval status. It could define the length of time over which low
   performance would warrant specific actions. CMS could establish levels of approval that
   would determine the degree of its oversight, develop corrective action plans for centers that
   fall below the criteria, and outline termination processes for centers that are unable to meet
   the criteria over time.

CMS should take immediate steps to improve its ability to maintain accurate and
timely data on center performance.

   Because the development and implementation of a new system for the approval, periodic
   recertification, and oversight of heart transplant centers may be lengthy, there are steps CMS
   can immediately take to improve its oversight of Medicare-approved heart transplant center
   performance. Obtaining Scientific Registry data is a first step toward the routine tracking
   and analysis of heart transplant center performance data. This would eliminate CMS’s
   reliance on center reporting as the sole source of data on program changes.

   While developing an arrangement for the regular exchange of performance data from the
   Health Resources and Services Administration, CMS could request or obtain the publicly
   available data on volume and performance since 1987 from the Scientific Registry. Using
   these data, CMS could identify instances in which centers fail to meet the ongoing criteria for
   volume and survival rate, once they are defined. With regular performance data coming from
   the Scientific Registry, CMS can be better informed in the future regarding its oversight
   efforts.

   Moreover, CMS could use volume and survival rate data from the Scientific Registry for
   quality improvement efforts. It could make that data available to the public to encourage
   more informed decision- making by beneficiaries. Many of the centers that fell below the
   initial criteria are located a short distance from another center that meets or exceeds the
   initial approval criteria. This knowledge about the comparative quality of care of centers
   could facilitate the public’s informed decision-making about their health care.




                                                17

   Medicare-Approved Heart Transplant Centers                                    OEI -01-02-00520
                               COMMENTS ON THE
                                DRAFT REPORT

We received comments on our draft report from the Centers for Medicare & Medicaid
Services (CMS) and the Health Resources and Services Administration (HRSA).

These agencies agreed with our recommendations and described steps that they are taking to
address them. In particular, we are encouraged that CMS and HRSA plan to publish a
proposed rule that includes survival criteria for initial approval and reapproval of transplant
centers. We are pleased that this proposed rule will include a process that CMS will follow if
centers do not meet ongoing performance criteria.

We would, however, like to address two points that these agencies’ comments raise.

First, the agencies raise concerns about our reliance on Medicare’s volume and non risk-
adjusted survival criteria as a basis for assessing center performance. For this inspection, we
focused on the Medicare coverage criteria that were established in 1987—and that have not
yet been revised—as measures of center performance. Newly approved centers are required
to meet the volume and outcome criteria set forth in these coverage conditions. It seemed
reasonable to us to assess their continued adherence to these criteria once they become
Medicare-approved.

Second, the agencies indicate that the Department of Health and Human Services (HHS)
oversees transplant centers through the Organ Procurement and Transplantation Network
(OPTN). For example, they point out that any center that did not meet Medicare’s volume
and survival criteria would have been reviewed by the OPTN using risk-adjusted
performance criteria. We recognize the important oversight role played by the OPTN and
intend to look more closely at it in the future. Certainly the OPTN’s review of center
operations and quality serves a valuable purpose as one component of oversight. However,
since CMS is the regulatory agency with responsibility for ensuring quality care for Medicare
beneficiaries and for protecting the Medicare Trust Fund, it is the accountable agency so far
as Medicare participation is concerned.

Input from a collegial, scientific organization is not the same as regulatory oversight of
participating centers. HHS oversees the performance of the OPTN as a private contractor;
that oversight does not extend to using that contractor for approval of centers for
participation in Medicare.




                                             18

Medicare-Approved Heart Transplant Centers                                  OEI -01-02-00520
                                                     APPENDIX A

                                  AGENCY COMMENTS





                                             19

Medicare-Approved Heart Transplant Centers             OEI -01-02-00520
                                                   APPENDIX A




                                             20

Medicare-Approved Heart Transplant Centers           OEI -01-02-00520

                                                   APPENDIX A




                                             21

Medicare-Approved Heart Transplant Centers           OEI -01-02-00520

                                                   APPENDIX A




                                             22

Medicare-Approved Heart Transplant Centers           OEI -01-02-00520

                                                                         APPENDIX B


                                    METHODOLOGY

  In 1987, Medicare published criteria that heart transplant centers must meet to be approved
  for coverage. Among other criteria, Medicare approval required centers to have transplanted
  12 or more patients in the 12 months preceding the application and to have achieved a 73
  percent 1-year survival rate. The coverage decision identified volume and survival rate as
  key indicators of quality and required centers to report if they fall below these criteria.
  Between 1987 and 2002, Medicare approved 99 heart transplant centers.

            Number of Heart Transplant Centers Approved for Medicare,
                       by Year of their Effective Approval
                     Number of Approved                           Number of Approved
                            Centers                                     Centers
       Effective   Approved      Cumulative          Effective   Approved    Cumulative
        Year of    Per Year         Total             Year of    Per Year       Total
       Approval                                      Approval
         1986           13           13                1995         7            79
         1987            4           17                1996         5            84
         1988            7           24                1997         3            87
         1989           10           34                1998         3            90
         1990           11           45                1999         0            90
         1991            5           50                2000         4            94
         1992           12           62                2001         4            98
         1993            4           66                2002         1            99
         1994            6           72
                      Source: CMS website

  For this report, we reviewed several sources of data related to the volume and survival rate
  criteria and the reporting requirement. Some approvals made were made retroactive to 1986.
  We were unable to access data for each of the 99 approved centers or for the entire time
  period between 1986 and 2002. In those cases, however, we noted the limitations of the data
  in the text.

Center-Specific Performance Data

  We used Microsoft Excel and SAS ®, a statistical analysis program, to review and analyze
  each center’s 1-year volume and survival rate. Our data analysis covers every year from
  1986, when Medicare retroactively attributed coverage, to 2000, the most recent year of data
  available. These data allow post-approval performance analysis of all 90 Medicare-approved
  heart transplant centers approved before the year 2000. These data allowed us to track how
  many centers per year met or did not meet the initial Medicare coverage criteria for volume
  and survival rate performance and to what extent they did not meet the criteria over time.
  Performance data represent only adult heart transplants.




                                               23

  Medicare-Approved Heart Transplant Centers                                 OEI -01-02-00520
                                                                            APPENDIX B

   We obtained each center’s 1- year volume and survival rate data from the Health Resources
   and Services Administration (HRSA). HRSA synthesized volume and survival rate
   information from data it received from its contractor, the Scientific Registry of Transplant
   Recipients. The Scientific Registry collects, analyzes, and releases data on heart transplant
   centers, including volume and survival rate. We requested annual volume and survival rate
   data from 1986 to 2002, but HRSA staff who provided us with Scientific Registry data told
   us that data were incomplete, at the time of our request, for years after 2000 given the time it
   takes to input and analyze the data.

   We also interviewed HRSA and Scientific Registry staff to find out the extent to which they
   validate data that centers report. They told us that they validate survival rate through
   comparing center reports with Social Security records. In turn, we attempted to validate the
   Scientific Registry data through comparing figures from the Scientific Registry and from the
   Organ Procurement and Transplantation Network (OPTN) another HRSA contractor that
   collects and manages data from heart transplant program. However, the Scientific Registry
   and OPTN calculate and publish their data differently, making comparisons difficult.
   Although OPTN has volume and survival rate data publicly available on the Internet, the data
   do not correspond with the calendar year time period on which we based our analysis. While
   the Scientific Registry gave us volume and survival rate for every year (January 1 to
   December 31), OPTN calculates data for a 3- year cohort, which it published on its website.

   To determine the distance between centers, we used a SAS ® program to calculate the distance
   between the geographic center of each zip code in which a heart transplant center is located;
   we did not use street addresses to calculate distances. The resulting distances are therefore
   approximate, not exact, center-to-center distances.

   Incomplete volume and survival rate records and a lack of accurate data on the review and
   approval process for each center prevented several analyses, including: how often approved
   centers met the approval criteria at the time of their approval, and how often centers met the
   2-year volume and survival rate. The 1- year criteria that we used to assess center
   performance are a lower threshold than using both the 1-year and the 2- year criteria for
   volume and survival rate.

   CMS posts on its website the effective date of approval for each Medicare-approved heart
   transplant center. We used these dates to determine the effective year of approval for each
   approved center. Two of these dates were incorrect. Fairview University in Minneapolis,
   Minnesota and Clarian Health in Indianapolis, Indiana are incorrectly listed as approved in
   1997. Both centers indicated, in response to our survey, that their effective dates of approval
   were 1986.

Review of Files and Applications of Medicare-Approved Centers

   While on-site at CMS headquarters in Baltimore, we collected and reviewed all files
   associated with heart transplant centers, including center applications and CMS-center
   correspondence. CMS staff told us that they were unable to retrieve some files and
   documents. CMS did not have 8 files and 77 applications of the 99 centers with effective


                                                24

   Medicare-Approved Heart Transplant Centers                                   OEI -01-02-00520
                                                                         APPENDIX B

   approval dates between 1986 and 2002. In the process of moving office locations, CMS staff
   responsible for transplant facilities purged or stored documents, such as waivers,
   applications, and subsequent correspondence, in the Federal Archives.

   Using an Excel spreadsheet, we documented what the available files and applications
   contained. We recorded the number of voluntary notifications centers sent to CMS and any
   communications CMS made to centers about the reporting criteria and performance
   expectations. If such notifications and communications existed, we documented the contents
   of those documents.

   Two centers took steps to voluntarily terminate themselves from Medicare coverage.
   Although these steps occurred recently, in 2002, CMS staff told us that documents related to
   these steps to terminate are incomplete, similar to the other files. We extracted as much as
   was available and for greater details reviewed the two cases with CMS staff during our on-
   site visit.

   We also obtained the letter CMS gave to heart transplant centers on June 6, 2000, to remind
   them of their obligation to report changes in their transplant program (see Appendix C).
   Seventy out of the 91 centers that Medicare had approved by that time responded to the 2000
   letter. We reviewed the 2000 letter and centers’ responses and documented how many
   centers reported significant decreases in their volume and survival rate.

Phone Interviews and On-Site Visit of CMS Headquarters

   To document the approval process, CMS’s ongoing oversight, and communications between
   CMS headquarters and approved centers, we conducted four phone interviews and one on-
   site interview with CMS headquarters staff in the Office of Coverage and Analysis Group
   (OCAG), who oversee the Medicare-approval process and post-approval performance of
   heart transplant centers. We also conducted two interviews with CMS staff from the Office
   of Clinical Standards and Quality (OCSQ), which is responsible for writing policy for heart
   transplant centers. In July 2001, policy decisions related to heart transplant centers were
   moved from OCAG to OCSQ=s Division of Institutional Quality Standards. OCSQ is
   currently in the process of reevaluating the existing standards and developing Conditions of
   Participation.

Phone Survey of CMS Regional Offices

   We developed a telephone survey protocol for CMS regional office staff responsible for
   overseeing Medicare-certified hospitals, including those with Medicare-approved heart
   transplant centers. We inquired about the role of CMS regional offices in the oversight of
   heart transplant centers and the extent to which regional offices communicate with centers
   and with CMS headquarters in Baltimore. We interviewed the four CMS regional offices of
   OCSQ, and the nine regional offices from the Division of Survey and Certification (DSC).
   We also spoke with two regional offices in the Division of Beneficiary Health Plans and
   Providers (DBHPP), which provides information to Medicare beneficiaries about insurance.



                                                25

   Medicare-Approved Heart Transplant Centers                                OEI -01-02-00520
                                                                          APPENDIX B

Surveys to Medicare-Approved Heart Transplant Centers

  We designed a written questionnaire and received 65 responses from the 97 approved centers
  that we were able to contact. Addressed to directors of each center’s transplant programs, we
  mailed the survey twice to increase the response rate. We recorded the survey results on
  Microsoft Access template and aggregated the results using Access queries.

  We used the survey results to validate and supplement the information we gathered from
  CMS files and regional/headquarter staff interviews. We asked centers about waivers they
  received for low volume and survival rate, any reports of program changes that they gave to
  CMS, and their experiences in meeting the performance criteria. We then compared the
  survey response with what we found in CMS’s files.

Medicare Claims Data

  Using SAS ®, we analyzed claims data from the CMS Customer Information System (HCIS).
  Since 1992 to the present, CMS has used HCIS to summarize Medicare claims data. From
  HCIS, we extracted Medicare Part A payments captured under diagnostic-related group
  (DRG) 103, the DRG for heart transplants. The data cover 1992 to 2001, the earliest and
  latest years of data available. We recognize that other Medicare costs are associated with
  heart transplants, such as Part B payments, immunosuppressant drugs, and diagnostic
  procedures. However, we focused solely on the Part A, DRG 103 amount to calculate the
  number of Medicare beneficiaries receiving heart transplants in approved centers and their
  corresponding costs.

  For 11 states, HCIS did not have center-specific information to calculate how many
  beneficiaries receive a heart transplant and how much those transplants cost. Because we
  used each center as the unit of analysis in matching center performance data with claims data,
  it is likely that we have undercounted the number of beneficiaries who received transplants in
  a center that did not meet the initial criteria for Medicare approval, and therefore,
  undercounted the costs for these transplants. For example, in 1998, we know that five
  centers in Texas, Utah, Virginia, Washington, and Wisconsin fell below the volume and/or
  survival rate criteria. However, HCIS did not contain center-specific information for these
  States in that year. As a result, we were unable to calculate the number of Medicare patients
  and associated costs given to those low performing centers using HCIS.

  We conducted a separate analysis of those missing centers using Medicare Provider Analysis
  and Review (MEDPAR) data, which increased the total amount Medicare has paid for
  Medicare-approved centers below the initial criteria for volume and/or survival rate by 3
  million dollars, and the total number of beneficiaries who received transplants in such centers
  by 33. We did not combine data from MEDPAR and HCIS due to discrepancies between the
  systems. These figures, however, would only increase the total dollars spent and
  beneficiaries affected.

  Also, we identified eight heart transplant centers that changed their Medicare Provider
  Number. Five of these centers changed their Medicare Provider Number due to a merger


                                               26

  Medicare-Approved Heart Transplant Centers                                  OEI -01-02-00520
                                                                          APPENDIX B

   with another hospital. In those cases, because we used centers as our unit of analysis, such
   mergers did not affect our yearly totals. Three of these centers received Medicare payment
   despite being denied approval.

Interviews with Expert Reviewers and Transplant Center Representatives

   We developed interview protocols and conducted interviews with three expert reviewers of
   applications for Medicare coverage and for three heart transplant center representatives.
   These interviews gave us insight into how, if at all, expert reviewers and centers
   communicate with CMS regional and headquarters staff about heart transplants, including the
   criteria to report program changes and performance expectations related to volume and
   survival rate. These interviews also allowed us to document the current and historical
   perspectives to Medicare coverage of heart transplants and issues that physicians and centers
   face in addressing volume and survival rate.

Literature Review

   We performed a literature review, covering relevant laws, regulations, policies, and
   guidelines. We paid particular attention to the 1987 and 2000 coverage criteria that outline
   the conditions under which Medicare would cover heart transplants, including the
   requirements to meet initial volume and survival rate criteria and to report program changes
   to CMS. We also reviewed OPTN data and documents related to center performance and
   reporting requirements, given that OPTN has similar requirements it uses in overseeing heart
   transplant centers. We reviewed journal articles that address the link between volume and
   survival rates.




                                                27

   Medicare-Approved Heart Transplant Centers                                 OEI -01-02-00520
                                                   APPENDIX C




                                             28

Medicare-Approved Heart Transplant Centers          OEI -01-02-00520

                                                   APPENDIX C




                                             29

Medicare-Approved Heart Transplant Centers          OEI -01-02-00520

                                                                            APPENDIX D

                                             ENDNOTES

1
  Robert Wolfe et al., “Final Analysis for the Data Request from the ACOT Multicultural Issues
Subcommittee Meeting of April 24, 2002,” Scientific Registry of Transplant Recipients Meeting
Materials, Table 2:13, 7.16.
2
  U.S. Department of Health and Human Services, “HHS Secretary Unveils Organ Donation
Documentary” HHS press release, 9 April 2002. Retrieved from
http://www.hhs.gov/news/press/2002pres/20020409.html, 12 July 2002.
3
     Criteria for Medicare Coverage of Heart Transplants, 52 FR 10,935, April 6, 1987.
4
     Ibid.
5
  U.S. Department of Health and Human Services, Centers for Medicare & Medicaid Services,
Medicare Coverage Policy, Transplant Centers: Re-Evaluation of Criteria for Medicare
Approval, Decision Memorandum, 26 July 2000.
6
   The 1-year and 2-year survival rates remained at 73 percent and 65 percent, respectively. The
minimum number of transplants and the period of follow-up experience, however, changed with
the volume requirements. These changes are reflected in Chart 1.
7
  Criteria for Approval of Facilities to Perform Covered Heart, Liver, Lung, Pancreas, and
Intestinal Transplants, Unified Agenda, 67 FR 74,524, December 9, 2002.
8
 U.S. Department of Health and Human Services, Centers for Medicare & Medicaid Services,
Medicare Coverage Policy: Re-Evaluation of Criteria for Medicare Approval of Transplant
Centers, Summary of Town Hall Meeting, 1 December 1999.
9
     Criteria for Medicare Coverage of Heart Transplants, 52 FR 10,935, April 6, 1987.
10
     Ibid.
11
   In our analysis of Medicare claims data from CMS Customer Information System, we found
eight provider numbers that did not match any of the ones associated with centers approved for
Medicare. According to the CMS files we reviewed, one of these Provider Numbers matched a
center that withdrew its application for Medicare approval in 1996. This center received
payments from Medicare of $51,633 in 1992.
12
      Criteria for Medicare Coverage of Heart Transplants, 52 FR 10,935, April 6, 1987.
13
      Ibid.




                                                    30
       Medicare-Approved Heart Transplant Centers                              OEI -01-02-00520
                                  ACKNOWLEDGMENTS


This report was prepared under the direction of Mark R. Yessian, Ph.D., Regional Inspector
General for Evaluation and Inspections in Boston and Joyce M. Greenleaf, MBA, Assistant
Regional Inspector General. Other principal Office of Evaluation and Inspections staff who
contributed include:

Steve Keenan, Lead Analyst                         Bambi Straw, Program Specialist

Chaletta Huertas, Program Analyst

Russell Hereford, Project Leader





Medicare-Approved Heart Transplant Centers          31                         OEI-01-02-00520
